MEMORANDUM FOR:               EMILY STOVER DeROCCO
                              Assistant Secretary
                               for Employment and Training


FROM:                         JOHN J. GETEK
                              Assistant Inspector General
                                for Audit


SUBJECT:                      American Indian Community House, Inc.
                              Final Audit Report No. 02-02-204-03-355


The attached final report is submitted for your resolution action. We request a response to this
report within 60 days. It is your office’s responsibility to transmit a copy of this report to
American Indian Community House, Inc., officials. However, we are providing a courtesy copy
directly to them. If you have any questions concerning this report, please contact
Richard H. Brooks, Regional Inspector General for Audit, at (212) 337-2566.


Attachment


cc: Rosemary Richmond, American Indian Community House, Inc.
           AUDIT OF
     THE AMERICAN INDIAN
    COMMUNITY HOUSE, INC.


   GRANT NO. B-5247-5-00-81-55
JULY 1, 1997 THROUGH JUNE 30, 1998




                   U. S. DEPARTMENT OF LABOR
                   OFFICE OF INSPECTOR GENERAL

                   REPORT NUMBER: 02-02-204-03-355
                   DATE:          January 24, 2002
                                    TABLE OF CONTENTS

                                                                                                                            PAGE


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS

          I.        NON JTPA-RELATED ART AND COMMUNICATION
                    COSTS - $198,245 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          II.       OTHER COST ALLOCATIONS - $47,581 . . . . . . . . . . . . . . . . . . . . . . . . . . 11

EXHIBITS

          A       JTPA ANNUAL STATUS REPORT
                  AND QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          B      SCHEDULE OF QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

APPENDIX

          AMERICAN INDIAN COMMUNITY HOUSE, INC.
          RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
              ACRONYMS

AICH    American Indian Community House


ASR     Annual Status report


CAP     Cost Allocation Plan


CFR     Code of Federal Regulations


DINAP   Division of Indian and Native American Programs


DOL     U. S. Department of Labor


ETA     Employment and Training Administration


FSR     Financial Status Report


FY      Fiscal Year


HHS     U. S. Department of Health and Human Services


JTPA    Job Training Partnership Act


OIG     Office of Inspector General


OMB     Office of Management and Budget




                         -i-
                        EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an audit of
costs claimed by The American Indian Community House, Inc. (AICH), under DOL Grant
Number B-5247-5-00-81-55, for the period July 1, 1997 through June 30, 1998. The audit
objective was to determine if costs claimed were reasonable, allowable and allocable in
accordance with applicable Federal regulations and cost principles.

The Employment and Training Administration (ETA) awarded AICH a grant under Title IV-A of
the Job Training Partnership Act (JTPA) to provide training and other services to Native
Americans who are facing serious barriers to employment. The purpose of Title IV-A was to
assist eligible economically disadvantaged, unemployed or underemployed Native Americans to
improve their economic status. AICH was responsible for designing training, employment, and
other program activities essential to reduce economic disadvantages among members, and to
advance economic and social development within its communities.

AICH also operated programs for substance abuse, health education, HIV/AIDS and Native
American awareness using primarily grants from U.S. Department of Health and Human Services
(HHS), New York State and city governments, and nonprofit organizations. AICH’s other
financial resources included donations, and revenues from art gallery and gift shop sales. JTPA
grant funds represented 27 percent of AICH’s total financial resources during the audit period.

Audit Results

In our opinion, the JTPA Annual Status Report (ASR) for the audit period did not present fairly,
in all material respects, the results of AICH’s operations in accordance with applicable Federal
regulations and cost principles. AICH did not maintain a system to adequately support costs and
properly allocate costs to final cost objectives. For the audit period, AICH claimed costs of
$550,235 of which we question $293,419 or 53 percent.

       C    Art and communication costs of $198,245 were allocated to the JTPA grant even
            though their primary functions were not JTPA-related or allowable. These charges
            related to three areas: Native American Art Gallery, Performing Arts Department
            and Information/Communications Department. The primary purposes of these
            departments were to promote Native American artists and performing artists, and to
            disseminate information about AICH and Native Americans.

       C    JTPA was directly charged $47,581 for telephone operators, accounting/auditing and
            other costs which should have been allocated among all of AICH’s programs.

       C    We question $47,593 of applicable indirect costs related to the above questioned
            costs.

                                               -1-
Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       1.   Recover questioned costs of $293,419, which includes applicable indirect costs of
            $47,593.

       2.   Require AICH to adequately support charges made to JTPA grants and allocate costs
            based on benefits received under the grant.

AICH Response

The Executive Director responded to our draft report on August 21, 2001. She disagreed with
the findings and recommended recovery of $293,419 as presented in the draft report. Generally,
AICH stated the questioned costs represent direct program costs and were distributed based on
benefits received using methodologies that have been in place for years and accepted by the
cognizant agency.

AICH’s response to the draft report has been incorporated in the report with our comments. It is
also included in its entirety as an Appendix.




                                               -2-
                                 INTRODUCTION

                               ETA awarded grants to Native American Tribes and nonprofit
 Background                    agencies to operate employment and training programs under Title
                               IV-A, Section 401 of JTPA. The purpose of JTPA Title
                               IV-A is to assist eligible economically disadvantaged, unemployed
or underemployed Native Americans to improve their economic status. AICH was awarded
Grant Number B-5247-5-00-81-55 to design training, employment and other program activities
essential to reduce economic disadvantages among its members, and to advance economic and
social development in the community.

AICH was organized in 1969 under New York State Law as a membership corporation and is tax
exempt under 501(c)(3) of the Internal Revenue Service Code. AICH established an Urban
Indian Center (Center) to serve the health, social service and cultural needs of 31,000 Native
Americans living in New York City, the counties of Nassau, Suffolk, Putnam, Rockland, and
Westchester, and the Shinnecock and Poospatuck Reservations. Through the Center, AICH
provided job training and placement services, health services and HIV/AIDS referral, case
management, and alcoholism/substance abuse counseling. Also, the Center operated a Native
American art gallery with a gift shop and a performing arts theater.

AICH financed its programs primarily through grants from HHS, DOL, the New York State
Department of Health, and the Medical Research Association of New York City. Other financing
sources included grants from nonprofit organizations, donations and revenues from the art gallery
and gift shop sales. DOL represented 27 percent of AICH’s total financial resources during the
audit period.

                            The audit objective was to determine if costs claimed for FY 1998
 Audit Objective            were reasonable, allowable and allocable in accordance with the
                            Code of Federal Regulations (CFR), Chapter 20, Part 632, “Indian
                            and Native American Employment and Training Programs” and
Office of Management and Budget (OMB) Circular A-122, “Cost Principles for Non-Profit
Organizations.”

                               We audited $550,235 of JTPA Title IV-A program costs claimed
 Scope and Methodology         by AICH for the Fiscal Year July 1, 1997 through June 30, 1998.

                                We obtained an understanding of internal controls through
inquiries with appropriate personnel and the independent auditor, inspection of relevant
documentation, and observation of AICH’s operation. The nature and extent of our testing were
based on a risk assessment of these controls.



                                               -3-
We examined the ASR, AICH’s books and records, and other documentation to support grant
expenditures. We reviewed minutes from AICH’s Board of Directors meetings, policies and
procedures, and the DOL grant agreement and modifications. We tested transactions on a
judgmental basis, and examined supporting documents such as canceled checks, vouchers,
invoices, and independent auditor working papers. We did not audit performance measurements
of AICH.

We did not audit the indirect cost pool since HHS, the cognizant agency, negotiated a final
indirect cost rate of 27 percent with AICH on January 6, 1999. Indirect costs were allocated to
the final cost centers based on direct costs, and were classified as Administrative Costs under the
grant.

We conducted our audit in accordance with generally accepted auditing standards and those
applicable to financial statement audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States.




                                                -4-
Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


                  ASSISTANT INSPECTOR GENERAL’S REPORT

We audited the Annual Status Report (Exhibit A) of the American Indian Community House, Inc.
(AICH), for the Fiscal Year July 1, 1997 through June 30, 1998, under U.S. Department of Labor
Grant Number B-5247-5-00-81-55. The costs claimed are the responsibility of AICH
management. Our responsibility is to express an opinion on the reported costs based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance about
whether reported costs are free of material misstatements. An audit includes examining, on a test
basis, evidence supporting the claimed costs. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
presentation of the reported costs. We believe our audit provides a reasonable basis for our
opinion.

The Annual Status Report (Exhibit A) was prepared in conformity with accounting practices
prescribed by 20 CFR Part 632, “Indian and Native American Employment and Training
Programs” which is a comprehensive basis of accounting other than generally accepted accounting
principles. Allowable costs are established by OMB Circular A-122.

Opinion on Financial Statement

As discussed in the Findings and Recommendations section of this report, AICH’s weaknesses in
its financial system resulted in questioned costs of $293,419. The Employment and Training
Administration (ETA) is responsible for resolving the questioned costs. The total effect of ETA’s
determination cannot be estimated at this time.

In our opinion, because of the matters discussed in the preceding paragraph, the Financial Status
Report did not present fairly, in all material respects, the costs of AICH’s grant in accordance
with CFR, Chapter 20, Part 632, “Indian and Native American Employment and Training
Programs” and OMB Circular A-122, “Cost Principles for Non-Profit Organizations.” for the
Fiscal Year July 1, 1997 through June 30, 1998.


Report on Internal Control


                                               -5-
In planning and performing our audit, we considered AICH’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on the Annual Status Report and not to provide assurances on the internal control over financial
reporting. However, we noted certain matters involving the internal control over financial
reporting and its operation that we considered to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect AICH’s ability to record, process, summarize, and report financial data consistent with the
assertions of management in the Annual Status Report. Reportable conditions are described in
the Findings and Recommendations section of this report.

A material weakness is a condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level of risk that misstatements in amounts
that would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of the internal control would not necessarily disclose all matters in
the internal control that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses.
We consider the reportable conditions described in the Findings and Recommendations section of
this report to be material weaknesses.

Report on Compliance With Laws and Regulations

Compliance with laws, regulations and grant agreement provisions are the responsibility of AICH.
As part of obtaining reasonable assurance about whether reported costs are free of material
misstatement, we performed tests of AICH’s compliance with certain provisions of laws,
regulations, and the grant agreement. However, our objective was not to provide an opinion on
overall compliance with such provisions. Accordingly, we do not express such an opinion. Our
tests disclosed instances of noncompliance that are required to be reported under Government
Auditing Standards and are described in the Findings and Recommendations section of this
report.

This report is intended solely for the information and use of AICH and ETA, and is not intended
to be and should not be used by anyone other than these specified parties.



John J. Getek
Assistant Inspector General
  for Audit

March 16, 2001



                                               -6-
                FINDINGS AND RECOMMENDATIONS

I.        NON JTPA-RELATED ART AND COMMUNICATION COSTS - $198,245

OMB Circular A-122, Attachment A, Section A, items 2g and 4a state:

         To be allowable under an award, costs must . . . be adequately documented.

         A cost is allocable to a particular cost objective such as a grant, contract, project,
         service, or other activity, in accordance with the relative benefits received. A cost is
         allocable to a Federal award if it . . . (2) Benefits both the award and other work and can
         be distributed in reasonable proportion to the benefits received. . . .

Space and staff costs of $198,245 for three departments were allocated to the JTPA grant even
though their primary functions were not JTPA-related or allowable: Native American Art Gallery
and Museum (Gallery), Performing Arts Department and Communications/Information
Department. The primary purposes of these departments were to promote Native American
artists and performing artists, and to disseminate information about AICH and Native Americans.

JTPA was charged for space costs of $109,620 for the three departments even though the costs
were neither related to JTPA nor allowable. Furthermore, salaries and fringe benefits of $88,625
for four staff members were also allocated directly to the JTPA grant when the functions of the
staff were not JTPA related and benefitted more than one cost objective. These conditions
occurred because AICH did not allocate costs to AICH’s programs and activities based on
benefits received. As a result, we question $198,245, as detailed below:

                           Department              Space        Staff     Total

                  Gallery                           $75,084     $27,611   $102,695
                  Performing Arts Department         27,455      40,270     67,725
                  Communications and
                  Information Department                7,081    20,744     27,825
                              Total               $109,620      $88,625   $198,245


                                      AICH allocated $102,695 to the JTPA grant for Gallery costs.
     Native American Art              The purpose of the Gallery, as stated in an AICH brochure,
     Gallery and Museum               was to:


         C   Exhibit and promote the best of contemporary art, in every media, by Native
             American artists throughout the country.

                                                  -7-
       C    Increase education and awareness of Native Art and of the living culture.

Advertising and public relations costs associated with the Gallery were not allowable or allocable
to the JTPA grant. Gallery costs should have been assigned to other cost objectives based on
benefits received. As a result, we question $102,695, consisting of $75,084 for space costs and
$27,611 for the director of exhibits and curator’s compensation. OMB Circular A-122,
Attachment B, Paragraphs 1d ,1f and 48 state:

       The only allowable public relations costs are: (1) Costs specifically required by
       sponsored awards; (2) Costs of communicating with the public and the press pertaining
       to specific activities or accomplishments which result from performance of sponsored
       awards (these costs are considered necessary as part of the outreach effort for the
       sponsored awards). . . .

       Unallowable advertising and public relations costs include the following: . . . Costs of
       displays, demonstrations, and exhibits; . . . . Salaries and wages of employees or cost of
       services engaged in setting up and displaying exhibits. . . .

       Costs of selling and marketing any products or services of the organization . . . are
       unallowable. These costs, however, are allowable as direct costs, with prior approval by
       awarding agencies, when they are necessary for the performance of Federal programs.

Public relations is defined in OMB Circular A-122, Attachment B, Paragraph 1b., as follows:

       The term public relations includes community relations and means those activities
       dedicated to maintaining the image of the organization or maintaining or promoting
       understanding and favorable relations with the community or public at large or any
       segment of the public.

The Gallery encompassed 3,022 square feet which included exhibition space, offices and a gift
shop to sell Native American crafts. The JTPA program was directly charged for all of the space
costs of $75,084 associated with the Gallery even though these costs have no direct relationship
to JTPA. During FY 1998, Gallery staff consisted of one individual, the director of exhibits and
curator whose principal duties were to mount exhibitions and participate in symposia designed to
educate the general public about American Indians and their art. The curator’s position
description did not identify any JTPA related responsibilities nor could AICH document that the
curator provided any training or training assistance activities to JTPA participants.

The exhibits and gift shop were not required by the JTPA grant. Therefore, the costs associated
with mounting exhibits, art sales, and gift shop were unallowable costs and were not allocable to
the grant. Furthermore, AICH received funding to support Gallery activities from New York
State, corporations, foundations and private contributions. AICH also received commissions for



                                                -8-
artwork sold in the Gallery, donations from visitors, sales from the gift shop and other
contributions.

According to AICH officials, the Gallery was used by JTPA participants to develop self-esteem,
explore careers in the arts, and learn about sales and management which would be allowable
under JTPA as training or training related services. However, AICH could not document
participants, or the training or related services received in the Gallery.

                                       AICH allocated $67,725 to the JTPA grant for Performing
 Performing Arts Department            Arts Department costs. The benefit received by JTPA from
                                       this department was not documented. As a result, we
                                       question $67,725, consisting of $27,455 for space costs and
$40,270 for staff salaries and related fringe benefits.

The purpose of the Performing Arts Department, as stated in an AICH brochure, was to:

       Promote Native American performing artists and provide a performance space and
       audience for music, dance and drama, written, directed and produced, or performed by
       Native American artists. It is also the goal of this department to educate the public, not
       only through expert speakers, on a variety of current and historical issues.

The Performing Arts Department encompassed 2,299 square feet which included: a theater
(1,592 square feet), director’s office (240 square feet) and two storage rooms (467 square feet).
JTPA was charged space costs of $27,455 for 1,105 square feet (25 percent of the theater, plus
100 percent of the director’s office and storage rooms).

Staff included the department director and his assistant. The director’s stated functions were to:
organize performance and cultural events, readings, speeches, and storytelling; hold workshops
and symposia on various aspects of professional theater; collaborate with various theaters;
function as a booking agent for Native American performers; and review theater scripts. The
assistant’s functions included technical duties for performing art events such as lighting, booking
jobs, informing the public on activities and looking for Native American talent. The salaries and
fringes of $40,270 for the director and his assistant were fully charged to JTPA.

                                  AICH allocated the entire Communications and Information
 Communications and               Department’s space and staff costs to the JTPA grant. These
 Information Department           costs were not specific to JTPA, but benefitted AICH as a
                                  whole. The costs included both allowable and unallowable
                                  activities, such as fund raising. As a result, we question
$27,825 consisting of $7,081 for space costs and $20,744 for the communications/information
officer’s compensation. OMB Circular A-122, Attachment B, Subparagraphs 1f and 23b state:

       Unallowable advertising and public relations costs include the following. . . . Costs of
       meetings or other events related to fund raising or other organizational activities. . . .

                                                -9-
       Costs of organized fundraising, including financial campaigns, endowment drives,
       solicitation of gifts and bequests, and similar expenses incurred solely to raise capital or
       obtain contributions are unallowable.

The purpose of the Communications and Information Department, as stated in an AICH brochure,
was:

       To disseminate information about AICH and Native Americans, and to correct the
       constant flow of misinformation about Native cultures and peoples.

The Communications and Information Department encompassed 285 square feet, including a
periodical/video library and office. AICH allocated 100 percent of the space costs of $7,081 to
the JTPA grant. During FY 1998, the staff consisted of only the communications/information
officer. The applicable position description lists her responsibilities as:

       C    maintain information on AICH, the community and Native Americans;

       C    update information files from area press clippings;

       C    produce AICH’s quarterly newsletter;

       C    assist in research projects;

       C    develop materials for information packets; and

       C    answer telephone and mail inquiries for information.

The duties were not specific to JTPA, but benefitted AICH as a whole; and included both
allowable and unallowable activities. For example, the quarterly newsletter provided program
information for the Gallery, Performing Arts Department, Women’s Wellness program, legal
services, JTPA, Health Division, substance abuse and HIV/AIDS. However, this quarterly
newsletter was also used for fund raising, soliciting donations for specific activities and to support
AICH activities in general. Costs associated with fund raising, including the appropriate share of
indirect costs, are expressly unallowable and should not be charged to JTPA or any other Federal
grant.

AICH Response

       These costs represent direct program costs that were distributed to the programs
       benefitted, using methodologies that have been in place for years and accepted by
       DHHS, the cognizant agency, and previous OIG auditors as indirect Central
       Administrative
       costs . . . .



                                                 -10-
        There is a significant mention of “public relations”, “fund raising”, “exhibition costs”
        related to this audit. . . . None of these costs were or are charged to JTPA. . . . Space
        costs and salaries/fringe for the staff who are charged with training and supervision of
        JTPA participants assigned to this site are charged to the program as direct costs as
        approved by DINAP in our CAP. . . . JTPA was charged a fair share of rent, utilities,
        other overhead costs and salaries/fringe related to curators, directors and other training
        staff-all of which are program related.

OIG Comment

The statement that costs were distributed to programs benefitted using methodologies in place for
years, and were assigned to programs as approved by DINAP in the cost allocation plan (CAP),
does not justify directly charging these costs without adequate documentation. AICH was unable
to provide documentation to demonstrate how these costs benefitted, either solely or partially, the
JTPA program. For example, the JTPA program was directly charged for all of the space costs of
$75,084 associated with the Gallery even though these costs have no direct relationship to JTPA.

II.     OTHER COST ALLOCATIONS - $47,581

AICH did not properly allocate other costs to final cost objectives. AICH directly charged
$47,581 to the JTPA program, as shown below, which should have been allocated among all
AICH’s programs and activities.

                                          Training Community   Work
                Cost Items               Assistance Service  Experience             Total

      Phone Operators                       $22,573            $0           $0      $22,573
      Accounting & Auditing                  18,000             0            0       18,000
      Health Insurance                            0         1,648        2,692        4,340
      Board of Directors & Equipment          2,668             0            0        2,668
      Questioned Costs                      $43,241        $1,648       $2,692      $47,581

                                Salaries and fringe benefits for maintenance/phone operator and
                                receptionist/phone operator were improperly charged directly to
  Phone Operators               the JTPA grant. The responsibilities of these positions relate to
                                the general operation of AICH and should have been
                                accumulated in the indirect cost pool and properly allocated to all
programs. As a result, we question $22,573, consisting of $12,572 for maintenance/phone
operator and $10,001 for receptionist/phone operator.

                                  AICH allocated to the JTPA grant $18,000 for accounting and
 Accounting and                   auditing fees. The JTPA grant was charged more than its fair
 Auditing Fees                    share for accounting and auditing services because costs were
                                  directly charged to the JTPA grant, and also accumulated in the

                                               -11-
administrative cost pool and allocated through the indirect cost rate. As a result, we question
$18,000 for accounting ($15,000) and auditing ($3,000) costs that were charged directly to the
JTPA grant. OMB Circular No. A-122, Attachment A, Part B, Item 1, states:

       . . . a cost may not be assigned to an award as a direct cost if any other cost incurred for
       the same purpose, in like circumstances, has been allocated to an award as an indirect
       cost.

Based on a review of invoices, there were no specific references to the types of services
performed or any indications that there were specific services provided for the JTPA program or
other programs which were charged directly. JTPA was charged $18,000 for accounting and
auditing services which should have been included in the administrative cost pool and allocated to
all AICH’s programs and activities.

                                   Health insurance premium costs of $4,340 were charged to
 Health Insurance                  JTPA Community Service Employment ($1,648) and Work
                                   Experience ($2,692) based on gross salaries of staff and
                                   program participants even though the participants did not
receive health insurance benefits. As a result, the JTPA grant was overcharged for health
insurance. OMB Circular A-122, Attachment B, Paragraph 7, Subparagraph f(2) states that
fringe benefits such as insurance:

       . . . shall be distributed to particular awards and other activities in a manner consistent
       with the pattern of benefits accruing to the individuals . . . whose salaries and wages are
       chargeable to such awards and other activities.

                                 AICH arbitrarily assigned miscellaneous purchases of the Board
 Board of Directors              of Directors and a laser printer to the JTPA grant. These are
 and Equipment                   indirect costs and should have been allocated to the JTPA and
                                 other grants through the indirect cost rate. As a result, we
                                 question $2,668 consisting of $1,659 for miscellaneous Board
of Director purchases and $1,009 for a laser printer. OMB Circular A-122, Attachment A, Part
C, Paragraph 1 states:

       . . . . Indirect costs are those that have been incurred for common or joint objectives and
       cannot be readily identified with a particular final cost objective.

JTPA was directly charged $2,668 for general costs which should have been allocated among
AICH’s programs and activities.

       C    Costs of $1,659 were for miscellaneous purchases made by the Executive Director.
            The purchases were relatively minor in amount and were for office supplies, food,
            beverages, telephone charges and flowers. Neither the Board minutes nor AICH
            provided justification for the purchases as direct charges to JTPA or any other

                                               -12-
            program or activity. Since the Board meets to discuss all AICH programs and
            activities, the charges, if allowable should have been allocated among programs based
            on benefits received.

       C    AICH purchased a laser printer for $1,009 for the Communications and Information
            Department and recorded the purchase as consultant cost under JTPA Training
            Assistance. The entire Communications and Information Department benefits AICH
            as a whole, and its costs should be allocated among programs based on benefits
            received.

AICH Response

       Regarding the $22,573.00 cost for phone operator/receptionist and maintenance and
       related health insurance of $4,340.00, at the time that these costs were charged to JTPA
       both were training sites for JTPA participants. Therefore, we feel the charges are
       justified and should not be disallowed. . . .

       Regarding accounting and audit fees of $18,000, these are direct costs to the program
       and were not charged as both direct and indirect costs to JTPA. The accounting services
       provided to AICH were specifically for the JTPA program and were not incurred for the
       same purpose as accounting services that were charged to the central administrative cost
       pool by other programs. . . .

       Regarding the Board of Directors expenses of $2,668.00, these costs relate to expenses
       for Board Members attending Board and Board Committee meetings, the expense for
       hiring a JTPA participant to take and transcribe the minutes of said meetings, the cost of
       a printer for C&I and several miscellaneous expenses. While it appears that the costs are
       being borne solely by JTPA that is not actually the case. In any event, JTPA funds are
       consistently less than the expenses. These additional expenses are covered by donations,
       earned income, etc. If you wish to continue to question these costs, they can be replaced
       by other more acceptable JTPA expenses. . . .


OIG Comment

The phone operator and receptionist were not on the JTPA participant list provided by AICH, for
the period July 1,1997 through June 30,1998. Therefore, the argument that these positions were
JTPA training sites does not agree with the list of participants provided by AICH. Further, since
these employees’ salaries should not been assigned to the JTPA grant, the corresponding health
insurance costs should not be assigned to the JTPA grant.

Accounting and auditing services by nature benefit the entire company. Invoices for these
services did not identify that the CPA firm was engaged to provide a service specifically for the
JTPA program. The invoices stated; accounting services provided for the period. Further,

                                                -13-
AICH was unable to detail which invoices were assigned directly to the JTPA program, because
the general ledger had a year end adjusting entry to the account.

AICH has not provided us with any documentation to explain how the Board of Directors’
expenses or a laser printer directly benefitted the JTPA program.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       1.   Recover questioned costs of $293,419, which include applicable indirect costs of
            $47,593.

       2.   Require AICH to adequately support charges made to JTPA grants and allocate costs
            based on benefits received under the grant.




                                              -14-
                                                                               EXHIBIT A


                        American Indian Community House
                          Grant Number B-5247-5-00-81-55
                  JTPA Annual Status Report and Questioned Costs
                  For the Period July 1, 1997 through June 30, 1998



                                     Claimed           Questioned      Per
Program Cost                         Amount              Costs         Audit

Classroom Training                       $7,055                 $0     $7,055

Training Assistance                    349,448           241,486      107,962

Work Experience                          56,080               2,692    53,388

Community Service Employment             22,233               1,648    20,585

Supportive Services                       5,372                  0       5,372

Administrative                          110,047              47,593    62,454

Total                                  $550,235         $293,419      $256,816


See Exhibit B for details of questioned costs of $293,419.




                                               -15-
                                                                                             EXHIBIT B

                               American Indian Community House
                                Grant Number B-5247-5-00-81-55
                                  Schedule of Questioned Costs
                        For the Period July 1, 1997 through June 30, 1998

                                                                                Questioned
Program Cost                               Finding/Reference                      Costs

Training Assistance               I / Art & Communication                       $198,245
                                  II/ Phone Operators                             22,573
                                  II/ Accounting & Auditing                       18,000
                                  II/ Board of Directors & Equipment               2,668

                                  Subtotal                                      $241,486

Work Experience         II/ Health Insurance                                       2,692
Community Service
  Employment            II/ Health Insurance                                       1,648
Administrative (See Below)                                                        47,593

     Total                                                                      $293,419

Questioned Administrative Costs

Claimed Administrative Costs                                                                 $110,047
Less: Administrative Costs Per Audit
       Indirect Costs (27 Percent of Direct Costs of $202,2171)                  $54,599
       Direct Administrative Costs                                                 7,855
       Administrative Costs Per Audit                                                          62,454
               Questioned Costs                                                               $47,593




       1
           Total direct costs per audit were computed as follows:

                    Total Costs Per Audit (Exhibit A)               $256,816
                    Less: Total Administrative Costs                 (62,454)
                    Add: Direct Administrative Costs                   7,855
                               Total Direct Costs                   $202,217



                                                                      -16-
